  ~ ",¡,tV/CiS.


...."+'
~    .. ~
                                            DEPARTMENT OF HEALTH AND HUMAN SERVICES
\ ~
~..~"'"~
                                                      OFFICE OF AUDIT SERVICES
                                                     233 NORTH MICHIGAN AVENUE
                                                       CHICAGO, ILLINOIS 60601
                                                                                                                         REGION
                                                                                                                          OFFICE
                                                                                                                                  V
                                                                                                                                 OF
                                                                                                                     INSPECTOR GENERAL


                                                           September 22, 2009

            Report Number: A-05-09-00050

            Janet Olszewski
            Director
            Michigan Department of Community Health
            Capitol View Building
            201 Townsend Street
            Lansing, Michigan 48913

           Dear Ms. Olszewski:

           Enclosed is the U.S. Department of                        Health and Human Services (HHS), Office ofInspector
           General (OIG), final report entitled "Family Planing Services Claimed by Michigan During
           October 1, 2005, Though September 30,2007." We wil forward a copy of
                                                                                                          this report to the
           HHS action official noted on the following page for review and any action deemed necessary.

          The HHS action official wil make final determination as to actions taken on all matters reported.
          We request that you respond to this official within 30 days from the date of this letter. Your
          response should present any comments or additional information that you believe may have a
          bearing on the final determination.

          Section 8L of  the Inspector General Act, 5 U.S.c. App., requires that OIG post its publicly
          available reports on the OIG Web site. Accordingly, this report wil be posted at
          http://oig.hhs.gov.

          If you have any questions or comments about this report, please do not hesitate to call me, or
          contact Mike Barton, Audit Manager, at (614) 469-2543 or through email at
          Mike.Barton@oig.hhs.gov. Please refer to report number A-05-09-00050 in all correspondence.

                                                                 Sincerely,



                                                             1(~:i
                                                                Regional Inspector General
                                                                 for Audit Services

         Enclosure
Page 2 - Ms. Janet Olszewski


Direct Reply to HHS Action Official:

Jackie Gamer
Consortium Administrator
Consortium for Medicaid and Children's Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Ilinois 60601
Department of Health and Human Services
                  OFFICE OF
             INSPECTOR GENERAL




 FAMILY PLANING SERVICES
   CLAMED BY MICHIGAN
   DURING OCTOBER 1, 2005,
          THROUGH
     SEPTEMBER 30, 2007




                        Daniel R. Levinson

     (~
        ~~ SERV1CfS.û


                         Inspector General

      ~~~",~::~~         September 2009
                          A -05-09-00050
                                        Offce of Inspector General
                                                              http:// oig.hhs.gov




The mission of           the Offce of       Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of             the Department of  Health and Human Services (HHS) programs, as well as the
health and welfare of              beneficiaries served by those programs. This statutory mission is carred out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Offce of Audit Services (OAS) provides auditing services for HHS, either by conducting audits
with its own audit resources or by overseeing audit work done by others. Audits examine the
performance ofHHS programs and/or its grantees and contractors in carring out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations.
These assessments help reduce waste, abuse, and mismanagement and promote economy and effciency
throughout HHS.

Office of Evaluation and Inspections

The Offce of Evaluation and Inspections (OE1) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues. These
evaluations focus on preventing fraud, waste, or abuse and promoting economy, efficiency, and
effectiveness of departmental programs. To promote impact, om reports also present practical
recommendations for improving program operations.

Office of Investigations

The Offce of Investigations (01) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, 01 utilizes its resources by actively coordinating with the
Department of Justice and other Federal, State, and local                          law enforcement authorities. The investigative
efforts of       01 often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General

The Office of           Counsel to the Inspector General (OCIG) provides general                  legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all     legal support for
OIG's internal operations. OCIG represents OIG in all civil and administrative fraud and abuse cases
involving HHS programs, including False Claims Act, program exclusion, and civil monetary penalty
cases. In connection with these cases, OCIG also negotiates and monitors corporate integrity
agreements. OCIG renders advisory opinions, issues compliance program guidance, publishes fraud
alerts, and provides other guidance to the health care industry concerning the anti-kickback statute and
other OIG enforcement authorities.
                            Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
DIG post its publicly available reports on the DIG Web site.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Section 1905(a)(4)(C) of the Act requires States to provide family planning services to Medicaid
beneficiaries. Pursuant to section 4270 of the CMS “State Medicaid Manual,” family planning
services prevent or delay pregnancy or otherwise control family size. For sterilization services,
Federal regulations (42 CFR § 441.253) require States to maintain documentation indicating the
Medicaid beneficiary (1) was at least 21 years old at the time of the procedure; (2) was not
mentally incompetent; and (3) voluntarily gave informed consent at least 30 days, but not more
than 180 days, prior to the procedure.

States may claim 90-percent Federal funding for the costs of providing family planning services,
including sterilization services and prescription drugs. The Federal share for most other
Medicaid services is computed using the Federal medical assistance percentage. In Michigan,
this rate is about 56 percent.

In Michigan, the Department of Community Heath (State agency) administers the Medicaid
program and is responsible for providing family planning services and reporting expenditures for
Federal reimbursement. The State agency claimed $4,236,960 ($3,813,264 Federal share) for
5,044 sterilization services and $5,556,394 ($5,000,755 Federal share) for 155,249 claims for
prescription drugs provided to Medicaid beneficiaries during the audit period October 1, 2005,
through September 30, 2007.

OBJECTIVE

Our objective was to determine whether the State agency properly claimed Federal
reimbursement at the 90-percent rate for family planning services provided during
October 1, 2005, through September 30, 2007.

SUMMARY OF FINDINGS

The State agency properly claimed Federal reimbursement for family planning services provided
during October 1, 2005, through September 30, 2007. From a random sample of 100
sterilization services provided to Medicaid beneficiaries, the State agency properly claimed
Federal reimbursement for sterilization services that were documented as required for 99
services. However, the State agency claimed $840 ($756 Federal share) for sterilization services
provided to one beneficiary that did not have the required, signed patient consent form. A


                                              i
review of all claims for prescription drugs disclosed that the State agency claimed $91 ($82
Federal share) for five prescriptions that were non-family planning drugs. We could not
determine why the State agency did not maintain the required sterilization documentation for the
one beneficiary and why the five non-family planning drugs were claimed for reimbursement.

RECOMMENDATION

We recommend that the State agency refund $838 to the Federal Government for the
unallowable family planning costs claimed from October 1, 2005, through September 30, 2007.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency said that it concurred with our
recommendation and will refund $838 to the Federal Government. The State agency comments
are included in their entirety as Appendix B.




                                             ii
                                                 TABLE OF CONTENTS 


                                                                                                                                  Page


INTRODUCTION.......................................................................................................................1


          BACKGROUND ..............................................................................................................1         

              Medicaid Coverage of Family Planning Services.................................................1 

              Michigan’s Medicaid Program .............................................................................1                     


          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................2 

               Objective ...............................................................................................................2    

               Scope.....................................................................................................................2   

               Methodology .........................................................................................................2        


FINDINGS AND RECOMMENDATION................................................................................3


          FEDERAL REQUIREMENTS.........................................................................................3                     


          STERILIZATION SERVICES.........................................................................................3                   


          PRESCRIPTION DRUGS ................................................................................................4               


          RECOMMENDATION ....................................................................................................4               


          STATE AGENCY COMMENTS.....................................................................................4 


APPENDIXES

          A – SAMPLE DESIGN AND METHODOLOGY

          B – STATE AGENCY COMMENTS




                                                                iii
                                       INTRODUCTION 


BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Medicaid Coverage of Family Planning Services

Section 1905(a)(4)(C) of the Act requires States to furnish family planning services and supplies
to individuals of childbearing age who are eligible under the State plan and who desire such
services and supplies. Section 1902(a)(10)(A) of the Act specifies that family planning services
be available to “categorically needy” Medicaid beneficiaries, while section 1902(a)(10)(C)
specifies that the services may be rendered to “medically needy” Medicaid beneficiaries at the
State’s option. Section 1903(a)(5) of the Act and 42 CFR §§ 433.10(c)(1) and 433.15(b)(2)
authorize a 90-percent rate for Federal reimbursement for family planning services.

Pursuant to section 4270 of the CMS “State Medicaid Manual,” family planning services prevent
or delay pregnancy or otherwise control family size. In addition, this section generally permits a
90-percent rate of Federal reimbursement for counseling services and patient education;
examination and treatment by medical professionals pursuant to State requirements; laboratory
examinations and tests; medically approved methods, procedures, pharmaceutical supplies, and
devices to prevent conception; and infertility services, including sterilization reversals. The
manual indicates that States are free to determine the specific services and supplies that will be
covered as Medicaid family planning services as long as those services are sufficient in amount,
duration, and scope to reasonably achieve their purpose. However, only items and procedures
clearly furnished or rendered for family planning purposes may be claimed at the 90-percent rate
for Federal reimbursement.

Michigan’s Medicaid Program

In Michigan, the Department of Community Heath (State agency) administers the Medicaid
program and is responsible for providing family planning services and reporting expenditures for
Federal reimbursement. The State agency claimed $4,236,960 ($3,813,264 Federal share) for
5,044 sterilization services and $5,556,394 ($5,000,755 Federal share) for 155,249 claims for
prescription drugs provided to Medicaid beneficiaries during the audit period October 1, 2005,
through September 30, 2007.




                                              1

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency properly claimed Federal
reimbursement at the 90-percent rate for family planning services provided during
October 1, 2005, through September 30, 2007.

Scope

We reviewed non-waiver family planning services, including claims for sterilization services and
prescription drugs totaling $9,793,354 ($8,814,019 Federal share), that were provided to
Medicaid beneficiaries during October 1, 2005, through September 30, 2007. We reviewed a
simple random sample of 100 sterilization services totaling $84,000 ($75,600 Federal share) and
all 155,249 claims for prescription drugs with payments totaling $5,556,394 ($5,000,755 Federal
share). We did not review family planning services claimed under a CMS-approved waiver. 1

We did not review the overall internal control structure of the State agency’s Medicaid program.
Instead, we reviewed the State agency’s procedures related to the reporting and claiming of
expenditures for family planning services. We did not review the medical necessity of the
services or whether the services were actually provided.

We performed fieldwork at the State agency in Lansing, Michigan, from August through
November 2008.

Methodology

To accomplish our objective, we:

    	 reviewed Federal and State laws and regulations related to reporting expenditures for
       family planning services;

    	 held discussions with State agency officials related to policies, procedures, and guidance
       for claiming Medicaid reimbursement for family planning services;

    	 obtained and reviewed sterilization and prescription drug claims data that supported the
       State agency’s non-waiver family planning expenditures reported during October 1, 2005,
       through September 30, 2007;

    	 selected a simple random sample of 100 sterilization services provided to Medicaid
       beneficiaries;

1
 The State agency claimed expenditures for family planning services provided under a CMS-approved waiver that
allowed Michigan to provide family planning services to recipients whose family income was at or below
185 percent of the Federal poverty level and not eligible for Medicaid.



                                                    2

   	 obtained and reviewed documentation related to sterilization services, including patient
      consent forms; and

   	 reviewed all prescription drug claims to ensure only allowable drugs were claimed as
      family planning services.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                           FINDINGS AND RECOMMENDATION

The State agency properly claimed Federal reimbursement for family planning services provided
during October 1, 2005, through September 30, 2007. From a random sample of 100
sterilization services provided to Medicaid beneficiaries, the State agency properly claimed
Federal reimbursement for sterilization services that were documented as required for 99
services. However, the State agency claimed $840 ($756 Federal share) for one sterilization
service provided to a beneficiary that did not have the required, signed patient consent form. A
review of all claims for prescription drugs disclosed that the State agency claimed $91 ($82
Federal share) for five prescriptions that were non-family planning drugs. We could not
determine why the State agency did not maintain the required sterilization documentation for the
one beneficiary and why the five non-family planning drugs were claimed for reimbursement.

FEDERAL REQUIREMENTS

Federal regulations (42 CFR § 441.253) require States to maintain documentation indicating that
all sterilization patients signed a consent form at least 30 days, but not more than 180 days, prior
to the date of sterilization. The form must include signatures of the patient, doctor performing
the procedure, and the person securing the consent form.

Section 4270 of the CMS “State Medicaid Manual,” generally permits a 90-percent rate of
Federal reimbursement for medically approved methods, procedures, pharmaceutical supplies,
and devices to prevent conception. Only items and procedures clearly furnished or rendered for
family planning purposes may be claimed at the 90-percent rate.

STERILIZATION SERVICES

From a random sample of 100 sterilization services provided during the audit period, the State
agency properly claimed Federal reimbursement and maintained required documentation for 99
services. For the remaining one service, the State agency claimed Federal reimbursement
totaling $840 ($756 Federal share) but did not maintain the beneficiary’s signed consent form.
We could not determine why the consent form was not maintained.



                                               3

PRESCRIPTION DRUGS

A review of all claims for prescription drugs during the audit period identified five prescriptions
totaling $91 ($82 Federal share) that were improperly claimed and reported as family planning
services. The table below shows the unallowable, non-family planning prescription drugs.


              Drug                          Drug Purpose                       Cost
    Levothyroxine tablet      To treat an underactive thyroid                  $10
    Terconazole cream         To treat yeast infections                         21
    Lipitor tablet            To treat high cholesterol                          5
    Zyrtec syrup              To treat inflammation of the nose                 50
    Cardizem tablet           To treat high blood pressure                       5
    Total                                                                      $91

We could not determine why the five non-family planning prescription drugs were claimed for
reimbursement.

RECOMMENDATION

We recommend that the State agency refund $838 to the Federal Government for the
unallowable family planning costs claimed from October 1, 2005, through September 30, 2007.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency said that it concurred with our
recommendation and will refund $838 to the Federal Government. The State agency comments
are included in their entirety as Appendix B.




                                               4

APPENDIXES 

                                                                                    APPENDIX A





                        SAMPLE DESIGN AND METHODOLOGY 


AUDIT POPULATION

The population consisted of all non-waiver sterilization services provided to Medicaid
beneficiaries and claimed for Federal reimbursement by the State of Michigan during the
period of October 1, 2005, through September 30, 2007.

SAMPLING FRAME

The sampling frame was a computer file containing 5,044 non-waiver sterilization services
provided to Medicaid beneficiaries and claimed for Federal reimbursement by the State of
Michigan during October 1, 2005, through September 30, 2007. The total reimbursement for
the 5,044 services was $4,236,960 ($3,813,264 Federal share).

SAMPLE UNIT

The sample unit was a sterilization service performed during the audit period.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample size of 100 sterilization services.

SOURCE OF THE RANDOM NUMBERS

Random numbers were generated by the OIG/OAS statistical software.

METHOD FOR SELECTING SAMPLE ITEMS

We sequentially numbered the services in our sampling frame and selected the sequential
numbers that correlated to the random numbers. We then created a list of 100 sample items.

CHARACTERISTICS TO BE MEASURED

For each sample item, we reviewed State agency documentation to ensure compliance with
Federal regulations (42 § CFR 441.253) which required documentation indicating that the
beneficiary that received the sterilization service (1) was at least 21 years old at the time of the
procedure; (2) was not a mentally incompetent; and (3) voluntarily gave informed consent at
least 30 days, but not more than 180 days, prior to the procedure.
                                                                            APPENDIX B 

                                                                              Page 1 of 2





Office of Inspector General Note—The deleted text has been redacted because it is
personally identifiable information.
APPENDIX B
  Page 2 of 2
